     Management Advisory Report



Single Audit of the Commonwealth
of Pennsylvania for the Fiscal Year
       Ended June 30, 2012




      A-77-14-00004 | December 2013
Single Audit of the Commonwealth of Pennsylvania for the
Fiscal Year Ended June 30, 2012
A-77-14-00004
December 2013                                                           Office of Audit Report Summary

Objective                                 Finding

To report internal control weaknesses,    The single audit reported the Pennsylvania BDD understated the
noncompliance issues, and                 hours submitted on the Time Report of Personnel Services for
unallowable costs identified in the       Disability Determination Services (Form SSA-4514) for two
single audit to Social Security           quarters ending December 31, 2011 and June 30, 2012. The errors
Administration (SSA) for resolution       occurred due to weaknesses in internal controls related to the
action.                                   preparation, review, and approval of the reports.

Background                                Recommendation

The Pennsylvania Auditor General and      We recommend that SSA verify that appropriate procedures are in
KPMG LLP conducted the single             place to ensure the accuracy of Form SSA-4514.
audit of the Commonwealth of
Pennsylvania. SSA is responsible for
resolving single audit findings related
to its Disability programs. The
Department of Labor and Industry
(L&I) is the Pennsylvania Bureau of
Disability Determination’s (BDD)
parent agency.
MEMORANDUM
Date:      December 13, 2013                                                    Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the Commonwealth of Pennsylvania for the Fiscal Year Ended June 30, 2012
           (A-77-14-00004)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2012. 1 Our objective was to
           report internal control weaknesses, noncompliance issues, and unallowable costs identified in the
           single audit to SSA for resolution action.

           The Pennsylvania Auditor General and KPMG LLP performed the audit. The results of the desk
           review conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the Pennsylvania Auditor General and
           KPMG LLP and the reviews performed by HHS. We conducted our review in accordance with
           the Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
           Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Pennsylvania Bureau of Disability Determination (BDD) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The BDD is
           reimbursed for 100 percent of allowable costs. The Department of Labor and Industry (L&I) is
           the Pennsylvania BDD’s parent agency.




           1
            Commonwealth of Pennsylvania Single Audit Report for the Fiscal Year Ended June 30, 2012
           http://www.portal.state.pa.us/portal/server.pt?open=512&objID=4574&&PageID=473561&mode=2 (last viewed
           November 8, 2013).
Page 2 - Gary S. Hatcher

The single audit reported the Pennsylvania BDD understated the hours submitted on the Time
Report of Personnel Services for Disability Determination Services (Form SSA-4514) for two
quarters ending December 31, 2011 and June 30, 2012. 2 The errors occurred due to weaknesses
in internal controls related to the preparation, review, and approval of the reports. The corrective
action plan indicated BDD resubmitted corrected Forms SSA-4514 and enhanced existing
procedures to review and approve the Form SSA-4514. We recommend that SSA verify that
appropriate procedures are in place to ensure the accuracy of Form SSA-4514.

The single audit also disclosed the following finding that may impact BDD operations although
it was not specifically identified to SSA. I am bringing this matter to your attention as it
represents a potentially serious service delivery and financial control problem for the Agency.
Specifically, L&I had deficient general computer controls including a lack of written policies and
procedures, a lack of segregation of duties, and inadequate physical security. 3

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 12-L&I-06.
3
    Id. at finding 12-08.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
